November 14, 2000
Audit Report No. 00-048


Audit of the QSS Group’s Billings to
the FDIC for Information Technology
Services
                                 TABLE OF CONTENTS


BACKGROUND                                                              1

OBJECTIVE, SCOPE, AND METHODOLOGY                                       2

RESULTS OF AUDIT                                                        4

UNALLOWABLE LABOR CHARGES                                               5

       Employee Qualifications Did Not Justify Rates Billed             5

       Inappropriate Reclassification of Labor Costs Among Contracts    7

       Unallowable Administrative Labor Charges                         9

       Subcontractor Markups Not Approved                              10

OTHER UNALLOWABLE COSTS                                                11

OTHER MATTERS                                                          11

       Best Customer Rate Certification                                11

       QSS’s Proposed Versus Actual Labor Mix                          13

       Off-Site Labor Rates                                            14

       Monitoring of Employees in FDIC Facilities                      14

CONCLUSIONS AND RECOMMENDATIONS                                        15

CORPORATION COMMENTS AND OIG EVALUATION                                16


TABLES

Table 1: FDIC Contracts Awarded to QSS During 1997 and 1998             2

Table 2: QSS Billings and OIG Questioned Costs                         4

Table 3: Summary of Questioned Labor Charges                            5

Table 4: Questioned Labor Cost Reclassifications by Contract            7
Table 5: QSS’s Labor Rates—Other Contracts Versus the GSA’s MAS Contract     12

Table 6: Off-Site Rates That Exceeded the GSA’s MAS Contract Maximum Rates   14


APPENDIXES

Appendix I:    Questioned Costs by Contract                                  17

Appendix II:   Corporation Comments                                          18

Appendix III: Management Responses to Recommendations                        23
Federal Deposit Insurance Corporation                                                        Office of Audits
Washington, D.C. 20434                                                           Office of Inspector General




   DATE:          November 14, 2000

   TO:            Arleas Upton Kea, Director
                  Division of Administration

                  Carol M. Heindel, Deputy Director
                  Division of Information Resources Management



   FROM:          Sharon M. Smith
                  Assistant Inspector General

   SUBJECT: Audit of the QSS Group’s Billings to the FDIC for Information Technology Services
            (Audit Report No. 00-048)

   This report presents the results of an audit of the QSS Group's (QSS) billings to the Federal
   Deposit Insurance Corporation (FDIC) for various types of information technology services. The
   audit addressed whether QSS’s billings to the FDIC were allowable under the contract terms and
   adequately supported. We performed this audit as part of the Office of Inspector General’s (OIG)
   1999 Annual Audit Plan.


   BACKGROUND

   Information technology contractors participate extensively in the services provided by the FDIC's
   Division of Information Resources Management (DIRM). During 1997 and 1998, the FDIC
   awarded nine contracts to QSS to provide information services with estimated fees totaling
   $25.3 million. Through November 1999, QSS had billed $21.5 million on those nine contracts.
   In March 2000, the FDIC awarded another $16 million contract to QSS; however, we did not
   review any of the invoices from that contract because of its recent award date.

   For seven of the nine contracts, the FDIC selected QSS from the General Services
   Administration's (GSA) Multiple Award Schedule (MAS). Under its MAS program, the GSA
   prescreens and selects contractors and establishes hourly rates for various labor categories based
   on employees’ experience and/or education. The FDIC’s Acquisition Policy Manual states that
   the Corporation selects contractors from the GSA schedule because it streamlines the contracting
   process and reduces lead times and administrative costs. Contracts that the FDIC awards under
   the GSA schedule are often called delivery orders or task orders. The FDIC awarded the two
   remaining QSS contracts under normal FDIC contracting procedures.
Table 1 shows the contract number, services, period of performance, not-to-exceed amount,
amounts billed, and type for each of the nine contracts. As of October 1999, QSS had billed the
FDIC about 89 percent of the total not-to-exceed amount on these contracts.

Table 1: FDIC Contracts Awarded to QSS During 1997 and 1998
                                                                                      Contract          Contract
                                                                                       Not-to-          Amount
    Contract                                             Contract Contract             Exceed          Billed As of
    Number                 Contract Services              Type     Period             Amount          October 1999
 9700077CAF Computer operations and tape                     FDIC    03/01/97 to     $ 1,934,784      $ 1,467,820
            library support                                           02/28/00
 9700078CAF Production control support                       FDIC    03/01/97 to       2,601,754         1,574,762
                                                                      02/28/00
 9700929NS2       Network migration services                 GSA     07/24/97 to       1,898,771         1,898,753
                                                                      07/23/98
 9700800PJT       Local area network                         GSA     07/29/97 to      11,991,523       10,967,527
                  administration support                              01/28/00
 9800058NLH Enterprise applications                          GSA     01/29/98 to       1,566,370         1,566,343
            development support                                       12/31/98
 9800309HCP Library timesharing support                      GSA     03/04/98 to             99,573        92,849
            services                                                  06/30/99
 9800292CJT       NT domain maintenance and                  GSA     03/19/98 to       1,458,500         1,458,446
                  support                                             05/31/99
 9800325CJ8       Microsoft back-office                      GSA     03/19/98 to       1,345,725         1,345,704
                  maintenance and support services                    05/31/99
 9801148NRM Client desktop support                           GSA     01/01/99 to       1,805,000         1,534,770
                                                                      12/31/99
     Totals                                                                          $24,702,000      $21,906,974
Source: OIG analysis of contract files and billing data for the FDIC’s contracts with QSS.



OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether QSS’s billings were in accordance with
contract terms and adequately supported. Our audit scope covered the $21.9 million that QSS
billed the FDIC as of October 1999 for information technology services under nine contracts.

To accomplish the objective, we reviewed the contract and oversight files maintained by the
FDIC and QSS. We assessed billing error risks by analyzing various contracts to determine
whether the billings varied significantly from the estimated level of effort. We concentrated our
work on the contracts with the largest variations in actual level of effort compared to estimates.
Accordingly, we limited our review of time sheets and other supporting documentation for two
contracts—9700077CAF and 9700078CAF—because the fees billed did not deviate significantly
from the estimated level of effort. In addition, the oversight manager’s files for those two


                                                         2
contracts indicated that the oversight manager performed extensive monitoring of the billings.
We also limited our review of support for QSS’s billings on 9800309HCP because the total fees
billed were less than $100,000.

To determine whether contractor personnel met the minimum experience and education
qualifications required by the GSA’s MAS contract and the FDIC’s delivery orders awarded
under that contract, we reviewed a judgmental sample of personnel from most of the labor
categories. The initial sample indicated that many of the sampled personnel did not meet
minimum qualification requirements in the LAN analyst III and consultant categories.
Accordingly, we expanded our review to cover personnel billed in those two labor categories. In
total, we reviewed qualifications for 94 QSS employee and subcontractor personnel in various
labor categories, of which 83 were in the LAN analyst III and consultant categories. We
reviewed QSS’s personnel files for resumes and applications submitted by employees. We also
reviewed QSS’s interview assessment and salary review forms that were included in employees’
personnel files to determine whether QSS officials rated employees as qualified for the labor
categories billed to the FDIC. In addition, we reviewed resumes that QSS provided for its
subcontractor personnel. Finally, we reviewed one employee’s performance appraisal because
his duties appeared to be administrative and not billable to the FDIC contracts.

We compared the actual number of hours billed to the budgeted hours for each labor category.
We then quantified excess labor costs billed in higher labor categories by comparing the actual
hours and labor rates that QSS billed with the budgeted hours and labor rates.

We reviewed the movement of QSS personnel between different FDIC contracts to determine
whether labor charges were billed to the appropriate contract. We also compared the names of
the FDIC officials who were authorized to approve overtime on each of the contracts to the FDIC
official that signed overtime approval forms to determine which contract the personnel were
actually working on. The OIG also reviewed time sheet edit reports that QSS provided to ensure
that QSS personnel were not charging the FDIC for work performed on non-FDIC contracts.

We reviewed QSS’s technical proposals and the FDIC contracts to determine whether
subcontractors were allowed, and what information was required to be disclosed to the FDIC
regarding subcontractors. We also reviewed documentation related to the FDIC’s approval of
subcontractors and their rates. In addition, we determined the amount of subcontractor markups
and determined whether the markups were allowable under the applicable contracts.

For two of the contracts—9700929NS2 and 9700800PJT—where QSS billed for cellular phones
and pagers, we compared the number of phones and pagers billed to the number of personnel
charging time to those contracts.

On the two non-GSA schedule contracts that the FDIC awarded, QSS warranted that its contract
rates did not exceed the rates it currently charged to any other customer for similar services in
like or smaller quantities. QSS also certified to the GSA that the prices proposed on its MAS
contract were current, accurate, complete, and equal to or better than the rates given to any class
of customer. To determine whether QSS complied with its price warranty clause, we reviewed
the documentation that QSS provided to the GSA to obtain its MAS contract because it contained


                                                3
details on hourly labor rates on all of QSS's contracts. Initially, we compared the rates and labor
categories on the price list that QSS provided to the GSA to determine whether the data was
current, accurate, and complete with regard to FDIC contracts shown on the price list. We
reviewed the GSA’s contract files, including the price negotiation memorandum, to determine
what data the GSA relied on to negotiate the labor rates in QSS’s MAS contract. We then
compared that data to the labor rates on the contracts that the FDIC awarded directly to QSS.

We did not evaluate QSS’s system of internal controls because the OIG concluded that it could
meet the audit objective more efficiently by conducting substantive tests rather than placing
reliance on the internal control system. The OIG conducted the audit from May 1999 through
June 2000 in accordance with generally accepted government auditing standards.

RESULTS OF AUDIT

We questioned $2,305,507 of $21,906,974 in QSS’s invoices that we reviewed because the
billings were either not in accordance with the terms of the contract or not adequately supported.
Table 2 summarizes QSS’s billings under the nine contracts and the amounts that the OIG
questioned.

Table 2: QSS Billings and OIG Questioned Costs
                  Description                                 Billed                     Questioned
Labor charges                                              $21,595,200                   $2,230,433
Other direct costs                                              311,774                       75,074
Totals                                                     $21,906,974                   $2,305,507
Source: OIG analysis of the FDIC’s contracts with QSS and QSS’s invoices and supporting documentation.

We questioned $2,230,433 in labor charges because QSS billed

     •   personnel at higher labor rates than justified by their qualifications,

     •   labor to contracts with available funds that was allocable to other contracts that had
         reached their funding caps,

     •   subcontractor markups without obtaining the FDIC’s approval of the subcontractors or
         their rates, and

     •   unallowable administrative labor charges.

We also questioned $75,074 that QSS billed for cellular telephones and pagers because the
FDIC did not authorize the charges and the charges were unreasonable in amount. Appendix I
shows the total questioned costs by category for each contract. We also identified other matters
concerning QSS's use of different labor mixes from those that were proposed, QSS’s best




                                                      4
customer rate certification made to the GSA, the physical presence of QSS personnel, and the
validity of QSS’s off-site labor rates.

Based on our audit, the OIG recommends that the Director, Division of Administration, disallow
$2,305,507 of fees previously paid to QSS under the nine contracts covered by this audit and take
specific actions to improve contract administration and monitoring.


UNALLOWABLE LABOR CHARGES

We questioned $2,230,433 of the $21,595,200 in labor charges that QSS billed the FDIC.
Table 3 summarizes the questioned labor costs by issue.

Table 3: Summary of Questioned Labor Charges
                               Description                                       Amount Questioned
Employee qualifications did not justify rates billed                                   $1,898,778
Inappropriate reclassification of labor costs between contracts                            213,832
Unallowable administrative labor charges                                                    87,693
Subcontractor markups not approved                                                          30,130
Total                                                                                  $2,230,433
Source: OIG analysis of the FDIC’s contracts with QSS and QSS’s invoices and supporting documentation.



Employee Qualifications Did Not Justify Rates Billed

Both the FDIC’s delivery orders and GSA’s MAS contract under which the FDIC awarded them
included minimum education and experience requirements for each labor category. Because the
FDIC’s and GSA’s education and/or experience requirements differed for some of the labor
categories, we compared employee qualifications to both the FDIC’s and GSA’s requirements.
We identified 42 QSS employees and subcontractor personnel that did not meet the FDIC’s
minimum qualification requirements for their labor categories, which resulted in $1,898,778 in
excess labor billings. We also identified 40 QSS employees and subcontractor personnel that did
not meet the GSA’s minimum qualifications, which resulted in $2,005,232 in excess labor
charges. Many of the same employees were in both groups. However, QSS employees
sometimes met the FDIC but not the GSA requirements and vice versa. Because the FDIC
changed the GSA’s education and experience requirements, we are only questioning the
$1,898,778 in excess labor billings based on the FDIC’s requirements.

The GSA’s contract established specific minimum education and experience requirements and
hourly labor rates for various labor categories. For the FDIC’s seven delivery orders awarded
under the GSA’s contract, the FDIC included minimum education and experience requirements
that differed from the GSA’s requirements. The FDIC’s requirements sometimes lowered the



                                                      5
GSA’s minimum requirements or allowed QSS to substitute additional work experience or an
unspecified "certification" instead of minimum education requirements. For example, the FDIC
revised the qualifications to allow a "certification" instead of an undergraduate degree in
engineering or a related field. However, we identified 37 QSS employees and subcontractor
personnel that did not meet either the FDIC’s or GSA’s requirements.

It is questionable whether the FDIC had the authority to alter the GSA’s requirements for
delivery orders that it placed under the GSA’s MAS contract. Nonetheless, we limited our
questioned costs to labor charges for individuals that did not meet the FDIC’s requirements.
Examples of individuals that did not meet the FDIC’s minimum requirements follow:

      •   QSS billed a subcontractor employee as a senior IT (information technology) consultant
          although the individual had only 3 years and 5 months of systems-specialist and
          network-administration experience and did not have an undergraduate degree. The
          employee’s remaining experience was in graphic design. The FDIC’s requirements for a
          senior IT consultant was an undergraduate degree, or equivalent experience, and a
          minimum of 8 years of experience in IT architecture and management. The subcontractor
          employee was qualified to be a LAN analyst II and QSS should have billed the employee
          at an hourly rate ranging from $33 to $36 per hour. Instead, QSS billed that individual at
          rates ranging from $89 to $102 per hour. During the 18-month period from August 1997
          through January 1999, QSS billed the FDIC $266,896 for that individual’s services. The
          proper amount based on the individual’s qualifications should have been $100,846 for
          that period. Accordingly, we questioned the difference of $166,050.

      •   QSS billed one employee as a LAN analyst III who had completed 2 years of college and
          1 year of network-related experience and was a Microsoft-certified product specialist in
                                        1
          Windows NT administration. The remainder of that employee’s work experience was
          driving a delivery truck for 15 years. The FDIC’s requirements for a LAN analyst III
          were 6 to 8 years experience and an engineering or related degree or a certification or
          equivalent experience. Using the $29.60 to $31.10 rate, which matched that individual’s
          qualifications, QSS should have billed $125,686 instead of the $215,444 that it billed at
          the LAN analyst III rate. Accordingly, we questioned the difference of $89,758.

We also identified instances where the QSS project manager promoted and billed individuals at
the next higher labor category when they obtained a new certification. However, the project
manager did not always consider experience requirements—in addition to the education and/or
certification requirements—that would have prevented the individuals from qualifying for the
higher labor category billed.

The FDIC has noted instances in other contracts where contractor personnel did not meet
minimum qualification requirements. In an e-mail to FDIC contract oversight officials, the Unit
Chief, Acquisition Services, stressed the importance of ensuring that contractor personnel meet

1
 The Microsoft-certified product specialist in Windows NT administration is one of the six certifications that are
required to become a Microsoft-certified systems engineer.



                                                          6
minimum qualification requirements as follows:

        Going forward, on this and other contracts I want to issue a word of
        caution. BE CAREFUL!!! When reviewing resumes, the OM/TM
        [oversight manager/technical monitor] cannot arbitrarily substitute
        experience for other mandatory requirements. The candidate for the labor
        category for which they are being considered must fully meet ALL the
        requirements of that category.

Salary review forms in QSS’s personnel files contained summaries of employees’ education and
experience as well as the education and experience required for those employees’ labor
categories. Forms contained in the personnel files of 20 of the 42 employees that QSS billed in
the wrong labor category indicated that those employees were not qualified for the labor category
for which QSS billed them. For example, a salary review form for a QSS employee billed as a
network analyst III indicated that the employee had a bachelor of science degree plus 2 years of
experience and was pursuing a Microsoft-certified systems engineer certification. However, the
contract required a bachelor of science degree or a certification plus 6 to 8 years of experience.
QSS billed that employee as a LAN analyst III despite the salary review form showing that the
employee did not qualify for that labor category. QSS billed another employee as a LAN
analyst III although an interview assessment form showed that the employee had only 2 plus
years of experience.

Inappropriate Reclassification of Labor Costs Among Contracts

QSS often reclassified labor costs among its FDIC contracts. Several of those reclassifications
were made when QSS shifted the labor charges for employees working on contracts that were
running low on available funds to other contracts with available funds. We questioned
$213,832 of contract reclassifications because the charges were not allocable to the contracts
billed. Table 4 shows the amount of reclassifications questioned by contract.

Table 4: Questioned Labor Cost Reclassifications by Contract
                      Contract                                          Questioned Costs
                    9700929NS2                                                $ 96,115
                    9700800PJT                                                 126,265
                    9800058NLH                                                  (69,352)
                    9800292CJT                                                  43,979
                    9800325CJ8                                                  16,825
                        Total                                                 $213,832
Source: OIG analysis of the FDIC’s contracts with QSS and QSS’s invoices and supporting documentation.




                                                      7
We identified the reclassifications from employee and subcontractor time sheets on which QSS
altered the contract number billed. The altered time sheets contained lines drawn through the
original charge codes and new charge codes entered on the time sheets. Contrary to QSS’s
policies, its employees did not initial the changes or provide an explanation for the alterations.
QSS’s policies stated that its employees must complete time sheets in blue or black ink and make
any corrections to the time sheet in ink. QSS’s policies also required the employee making the
corrections and the employee’s immediate supervisor to initial the corrections. The instructions
further required employees to draw a line through the incorrect information and provide a brief
explanation on the time sheet for all corrections. QSS’s policies also stated that the signed
approval of a time sheet certified the completeness, validity, and accuracy of the record and
authorized the accounting department to issue employee wage disbursements and customer
invoices.

In addition to its time sheet procedures, QSS also had procedures regarding task assignments.
All employees were to have written authorization from QSS managers to perform work on a
contract. QSS was to keep the task authorizations with the employees' time sheets and have them
readily available for verification. Employees were responsible for notifying their project
managers when their task assignments changed. However, QSS did not consistently change task
assignment forms when it shifted labor charges among contracts.

QSS made several significant labor charge reclassifications from contracts that were nearly out of
funding to contracts with ample funds remaining. For example, in August 1997, QSS
reclassified labor charges totaling $185,380 from its subcontract with Pulsar to two of its
contracts with the FDIC—contracts 9700800PJT and 9700929NS2. The $171,713 that QSS
charged to the two FDIC contracts was less than the $185,380 that QSS would have charged
using the Pulsar subcontract rates. However, QSS had exhausted all but $553 of the funding on
the Pulsar subcontract. In addition, in August 1997, QSS reclassified charges of $20,924 from its
ANSTEC subcontract to its contract 9700929NS2 with the FDIC and billed $23,307 under the
latter contract for the reclassified personnel. Not only were the charges higher on the FDIC
contract, but the charges also included $4,800 for a QSS project manager who was working on a
National Aeronautics and Space Administration contract for the first 2 weeks of August 1997.
Some of the reclassified charges were also for the first 2 weeks of August 1997. QSS files
indicated that QSS did not assign personnel to contract 9700800PJT until August 16, 1997.

Another example of shifting personnel from a contract that was running out of funding to
contracts with available funds occurred in March 1998. QSS had billed 79 percent of its initial
year funding on the 9700800PJT contract by the end of February 1998—7 months or 58 percent
of the 12-month contract period that the funds were budgeted to cover. In March 1998, QSS
reclassified 32 employee and subcontractor labor charges totaling $106,013 from contract
9700800PJT to three other FDIC contracts—contracts 9800058NLH, 9800292CJT, and
9800325CJ8. However, QSS charged those contracts $109,788 for the reclassified labor. In
August 1998, when contract 9700800PJT received its optional second year funding, QSS moved
back 26 of the personnel that it previously shifted to other contracts.

In addition, FDIC personnel who were not authorized to approve overtime on those three
contracts signed 25 overtime approval forms for the personnel charged to the three contracts


                                                8
during the May 1998 through July 1998 time frame. The FDIC authorized the personnel who
signed those overtime approval forms to approve overtime on contract 9700800PJT only. In
addition, several personnel that the FDIC did not authorized to approve overtime on any of the
invoiced contracts signed overtime approval forms. Personnel that the FDIC authorized to
approve overtime on the two contracts that picked up the reclassified personnel did not sign any
of the overtime approval forms for the reclassified personnel for the May 1998 through July 1998
time frame.


Unallowable Administrative Labor Charges

QSS billed the FDIC $87,693 in labor charges for one employee who performed administrative
functions for QSS. We question the entire $87,693 because QSS was not allowed to bill general
and administrative expenses to the FDIC contract. The contract stated:

       For satisfactory performance of the work required hereunder, the FDIC shall
       compensate the Contractor at the hourly rates specified in the Exhibit 1
       Price Schedule for the base period for actual productive hours worked
       exclusive of travel time, vacation, holiday, sick leave and other absences.
       These rates include any and all wages, overhead, general and administrative
       expenses and profit or fee.

Accordingly, QSS should not have billed the FDIC any general and administrative expenses.
The employee provided the following description of his responsibilities and accomplishments in
his performance appraisal covering July 1997 through July 1998:

       I assist the project manager with any needs he may have to be filled.
       Responsibilities include: coordination of all travel arrangements for QSS
       employees at FDIC, production, retrieval, and examination of all employee
       timesheets on the FDIC contracts, cell phone and pager services for all such
       employees. I also handle all expense reports from these employees.
       Corporate responsibilities include: creating and managing the bi-monthly
       business development report, daily review of the Commerce Business Daily
       and Federal Sources web sites to locate potential procurement opportunities,
       and assisting the Vice President of business development with other
       marketing/business development needs.

       I have brought to a close all outstanding travel expense reports, and created
       a tracking system to monitor all travel and subsequent reports. I have taken
       a more active role in the business development department, creating the
       report used to track potential procurements, and daily monitoring of the
       CBD to locate potential business opportunities. I am also the administrator
       for the Federal Sources and Win Award business development databases.




                                                9
The employee’s manager confirmed those duties as follows:

       Mr. [redacted] has performed a variety of functions in support of the FDIC
       LAN contract. He has provided for the proper accounting and tracking of
       cell telephones and pagers and all time sheets and travel requests. He
       provides high quality support to the employees who need fast responses to
       travel requests. He has provided additional assistance in support of
       proposals at the FDIC and also in support of Business Development efforts
       at FDIC.

All of the duties described in the employee’s performance appraisal are administrative in
nature—primarily related to billings to the FDIC—and are not part of the work required in the
contract’s scope of services. Accordingly, the employee’s labor costs were unallowable general
and administrative costs, which we questioned.


Subcontractor Markups Not Approved

Six of the seven delivery orders that the FDIC awarded under the GSA’s MAS contract required
QSS to disclose any subcontractors it planned to use, the subcontractor’s rates, and the
percentage used to mark up subcontractor invoices. For the seventh delivery order, QSS only had
to disclose the subcontractor's name and the percentage of the work that the subcontractor was to
perform. On the technical proposals for four of those seven delivery orders, QSS reported to the
FDIC that it did not intend to use any subcontractors to perform the work, yet QSS did use
subcontractors. Because the FDIC received services from the subcontractors and QSS incurred
direct subcontractor costs, we only questioned $30,130 of unauthorized markups on those
subcontracts.

An April 1998 e-mail to an FDIC oversight manager stated that QSS planned to use
subcontractors on two of its FDIC contracts—9800292CJT and 9800325CJ8. However, QSS did
not disclose the subcontractor rates or markup percentage as required, and the oversight manager
did not reply to the e-mail. Accordingly, QSS did not obtain required approvals on any of the
four contracts where it used subcontractors. We identified a total of $148,255 in unauthorized
subcontractor markups that QSS billed to the FDIC. The markup percentages ranged from
2 percent to 33 percent. Because QSS has several contracts with other federal agencies where the
payments are on a cost reimbursable basis, QSS was required to submit its actual incurred cost,
including indirect rates, to the Defense Contract Audit Agency (DCAA). In its incurred cost
submission to the DCAA, QSS reported that its actual subcontract administration rate was
1.29 percent and 2.31 percent for fiscal years 1997 and 1998, respectively. Accordingly, a
reasonable markup percentage would have been close to those percentages.

Although we identified $148,255 of unauthorized subcontractor markups that QSS billed to the
FDIC, we only questioned $30,130. We eliminated some of the markups when we recomputed
allowable costs based on subcontractor employee qualifications. We only questioned the
subcontractor markups that were greater than the recomputed labor category rate.



                                               10
OTHER UNALLOWABLE COSTS

QSS billed the FDIC $25,848 and $49,226 for unauthorized cellular telephones and pagers on
contracts 9700929NS2 and 9700800PJT, respectively. We questioned the entire amount billed—
$75,074.

The contracts provided that QSS could be reimbursed for other direct costs if the FDIC
contracting officer approved those costs in advance, in writing. However, neither QSS nor the
FDIC provided support showing that the FDIC authorized cellular telephone and pager charges.
Although contract 9700929NS2 contained a $50,000 allowance for other direct costs, the
contracting officer was still required to approve expenditures in advance, in writing. QSS
provided documentation that FDIC oversight managers authorized seven text pagers. However,
only contracting officers had authority to approve such expenditures.

In addition to the FDIC not authorizing the cellular telephone and pager charges as required, the
amounts that QSS billed were sometimes unreasonable. For example, at the beginning of
contract 9700929NS2, QSS billed about $3,000 per month for 25 cellular telephones and
51 pagers. At that time, QSS billed the FDIC for about 55 people. In June 1998, near the end of
the contract, QSS billed the FDIC for only two people but continued to bill for about 25 cellular
telephones and about 38 pagers.


OTHER MATTERS

We identified other issues that did not result in questioned costs, but warrant actions by the
FDIC. Those issues include QSS’s best customer rate certification to the GSA, proposed versus
actual labor mix, and off-site labor rates and the FDIC’s monitoring of QSS employees working
in FDIC facilities.


Best Customer Rate Certification

As part of qualifying as a MAS contractor, QSS certified to the GSA that its proposed labor rates
were equal to or better than the rates given to any class of customer. However, QSS did not
disclose accurate and complete information to the GSA, which inflated the rates that QSS
negotiated with the GSA. In turn, those higher rates affected the rates that the FDIC negotiated
with QSS for its delivery orders awarded under the GSA’s MAS contract. We identified
$2,305,660 in potential cost recoveries based on contracts where QSS did not disclose labor rates
to the GSA that were lower than labor rates in the contracts that QSS submitted to the GSA.

In an April 24, 1997, letter to the GSA, QSS stated:

       As a follow-up to our previous listing of contracts to support our request for
       GSA rates, the four contracts listed below were excluded from our GSA



                                                11
        schedule in that the labor categories on these contracts are not included in
        the labor categories being requested through GSA.

In its letter, QSS only listed the contract title and customer name and stated whether QSS was a
prime contractor or subcontractor. QSS did not disclose to the GSA the labor categories or labor
rates for the excluded contracts. Two of the contracts that QSS excluded were its subcontract
with ANSTEC for work on the FDIC’s network administration and its contract 9700078CAF
with the FDIC for production support services. Five of the labor categories in those two
excluded contracts were comparable to labor categories in QSS’s MAS contract with the GSA.
QSS’s disclosure to the GSA of the rates in those contracts should have resulted in lower
negotiated rates for some labor categories. Accordingly, the rates that QSS proposed to the GSA
were not equal to or better than the rates given to any class of QSS’s customers, as certified.
Table 5 shows the lowest rates that QSS disclosed to the GSA, negotiated rates on its GSA
contract, and lowest rate charged for each of the five categories that QSS excluded from its price
list submitted to the GSA.

Table 5: QSS’s Labor Rates—Other Contracts Versus the GSA’s MAS Contract
                                           QSS’s Lowest           QSS’s Negotiated  QSS’s Lowest
                                          Rate Disclosed to       Rate on the GSA Rate Not Disclosed
          Labor Category                      the GSA                Contract        to the GSA
Network analyst I                               $36.00                   $34.20                  $21.05
Network analyst II                                42.90                   40.76                   26.91
Network analyst III                               55.39                   52.62                   47.85
Microcomputer specialist                          30.41                   28.89                   21.78
Project manager II                                67.43                   64.06                   39.38
Source: OIG analysis of QSS’s contract data submitted to the GSA and billings submitted to the FDIC.



QSS improperly excluded its ANSTEC subcontract for network administration and technical
support services from its price list that formed a basis for its negotiations on the GSA’s MAS
contract. The labor category titles on the ANSTEC subcontract were different from the titles on
the GSA’s MAS contract. Despite the title differences, in its technical proposal for the
solicitation for contract 9700800PJT, QSS emphasized that it would use the incumbent work
force from the ANSTEC subcontract. QSS’s technical proposal stated:

        . . . QSS and our subcontractor, ANSTEC, are currently performing the
        work specified in this procurement, and we can staff to the 100% level for
        this requirement using that incumbent workforce.

In fact, QSS used 25 of the same personnel on the ANSTEC job and subsequent contracts
awarded under its MAS contract. The job categories and hourly rates for the personnel that
remained in place were the same on the ANSTEC subcontract and the subsequent delivery orders



                                                       12
that the FDIC awarded to QSS under the GSA’s MAS contract. Therefore, QSS should have
disclosed to the GSA the rates on the ANSTEC subcontract for similar labor categories.
Disclosure of those rates should have affected the rates that the GSA negotiated in that they were
lower than the rates the GSA negotiated as “equal to or better than the rates given to any class of
customer.” The best rate that QSS charged should have been no more than $21.05 for network
analyst I; $26.91 for network analyst II; $47.85 for network analyst III (LAN analyst I, II, and III,
respectively, on the FDIC contract); and $21.78 for microcomputer specialist (microsupport
specialist on the FDIC contract). Although the labor category titles were not the same between
QSS’s ANSTEC subcontract and its contract 9700800PJT with the FDIC, many of the personnel
were the same.

Like the ANSTEC subcontract, QSS improperly excluded its contract 9700078CAF with the
FDIC from its price list used to negotiate rates on its GSA contract. On contract 9700078CAF,
QSS billed labor costs for a project manager. Likewise, QSS’s MAS contract with the GSA had
a project manager labor category. QSS billed two of its personnel as project managers on its
FDIC contract 9700078CAF and its FDIC delivery orders 9700800PJT and 9700929NS2
awarded under the GSA’s MAS contract. The job category and labor rates for those two
personnel were the same when QSS billed them on its FDIC contract and FDIC delivery orders
awarded under the GSA’s MAS contract. Accordingly, QSS should have included the rates in its
9700078CAF contract with the FDIC on its price list submitted for the GSA’s MAS contract.
The lowest hourly rate that QSS charged for the project manager position on its FDIC contract
was $39.38 versus its negotiated hourly rate of $64.06 under the GSA’s MAS contract.

If QSS had properly disclosed the rates on its ANSTEC subcontract and its contract
9700078CAF with the FDIC, the rates negotiated under its GSA MAS contract should have been
significantly lower for five labor categories. We identified potential cost recoveries of
$2,305,660 based on the maximum rates that the GSA should have negotiated if QSS had made
an accurate and complete disclosure to the GSA. The OIG reported the best customer rate issue
to the GSA’s OIG and contracts office. The FDIC should recover any costs that the GSA
determines to be excessive based on its analysis of QSS’s inaccurate and/or incomplete labor rate
disclosures.


QSS’s Proposed Versus Actual Labor Mix

QSS billed more hours at higher rate labor categories and fewer hours at lower rate labor
categories than specified in its contract proposals. For example, on contracts 9700929NS2,
9700800PJT, and 9800058NLH, QSS billed 5,920 more hours than budgeted for the senior
IT consultant categories at rates of $101 to $102 per hour. On the same contracts, QSS billed
5,317 less hours than budgeted for the project manager category at hourly rates of $59 to $60.
Furthermore, QSS proposed the same project manager as a full-time manager on six different
contracts, some of which ran concurrently. In some of its technical proposals, QSS stated that
senior IT consultants would fill in for the project manager when needed. However, the project
manager rate was as much as $42 per hour less than the senior IT consultant rate.




                                                 13
In addition, on contract 9700800PJT, QSS billed 20,310 hours less than budgeted for LAN
analyst I and microsupport specialist categories with rates of $22 to $30 per hour. However, QSS
billed 35,887 hours more than budgeted for the LAN analyst II category at a rate of $37 per hour.
 We computed excessive billings of $403,701 based on QSS billing more hours than budgeted at
the higher senior IT consultant rate and LAN analyst II rates. However, we did not question
those costs because they duplicated costs questioned where senior IT consultants and LAN
analyst II personnel did not meet minimum qualification requirements and were lowered to other
categories.


Off-Site Labor Rates

For the FDIC’s delivery order 9801148NRM awarded under the GSA’s MAS contract, QSS
included off-site labor rates in its cost proposal to the FDIC. However, the GSA did not approve
off-site rates in its MAS contract with QSS. Furthermore, in some instances the off-site rates that
the FDIC negotiated with QSS were higher than the maximum rate allowed in QSS’s MAS
contract with the GSA. Table 6 shows the off-site rates that exceeded the maximum rates
allowable under the GSA contract.

Table 6: Off-Site Rates That Exceeded the GSA’s MAS Contract Maximum Rates
                                      GSA Contract’s Maximum             Off-Site Rate Per Contract
         Labor Category                    Hourly Rate                         98001148NRM
Project manager                                  $66.30                             $66.58
LAN analyst III                                    54.46                              57.15
Programmer analyst                                 51.13                              54.40
Source: OIG analysis of QSS’s MAS contract with the GSA and contract 9801148NRM with the FDIC.



Rates negotiated for the FDIC’s delivery order 9801148NRM stated that QSS would perform the
work with 6 on-site contractor personnel and 11 off-site contractor personnel at the contractor’s
facilities. The rates negotiated for the off-site personnel were higher than the rates for the on-site
personnel. However, QSS’s MAS contract with the GSA specified maximum hourly rates that it
could charge for each labor category. We did not question any costs because QSS’s did not bill
any off-site rates through October 1999. However, the FDIC should ensure that QSS’s future
billings against FDIC delivery orders awarded under the GSA’s MAS contract do not exceed the
maximum labor rates contained in the GSA’s MAS contract.


Monitoring of Employees in FDIC Facilities

We identified instances where QSS billed for employees or subcontractors on days when
available records indicated the employees were not present. Accordingly, the FDIC may be




                                                   14
paying for services that it is not receiving. The FDIC could benefit from increased monitoring of
personnel that QSS bills to its contracts.

QSS was required to provide weekly status reports to the FDIC, which listed the names of
personnel working on the contract and the number of hours that each person worked. We noted
that 9 out of 48 people that QSS billed to contract 9700800PJT during the period June 27, 1999,
through July 31, 1999, were not listed in the weekly status reports for July 1999. In addition, one
subcontractor that QSS billed to the FDIC for the week ended May 28, 1999, was not included in
the weekly status report for that period.

We traced a sample of days that the 10 people were billed to the contract to the FDIC’s facilities
entrance records created by the use of security badges. We obtained security badge transaction
reports from March 1999 through July 1999 and identified discrepancies on 6 of the
10 individuals sampled. The transaction records did not indicate that the six individuals entered
the FDIC’s facilities for 45 of 366 instances where QSS billed hours for those individuals. The
labor charges billed for those 45 instances totaled $17,688. We did not question any costs
pertaining to those discrepancies because we recognize that even though a person enters a facility
that person may not appear in security system records due to some situations. For example, staff
could enter the Virginia Square facilities through the hotel parking lot elevator without scanning
their access cards. In addition, the FDIC's security system may be out of order from time to
time. However, we identified sufficient discrepancies to suggest that the FDIC should strengthen
its monitoring to ensure that personnel that QSS bills to the FDIC are present on the days billed.

QSS’s GSA contract incorporates a clause from Federal Acquisition Regulation 52.246-6
regarding inspection of services. This clause says the government has the right to inspect and
test all services performed under the MAS contract to the extent practical at all places and times.
To determine whether personnel are present and working on the contract and QSS is properly
charging the contract, the FDIC could benefit from performing periodic unannounced inspections
of personnel performing services both on-site and off-site.


CONCLUSIONS AND RECOMMENDATIONS

Of the $21,906,974 in QSS billings that we reviewed, we questioned $2,305,507. Specifically,
we questioned $1,898,778 for employees not meeting minimum qualifications, $213,832 for
reclassifications of time charges between contracts, $87,693 for administrative costs, $30,130 for
subcontractor markups, and $75,074 for cellular telephone and pager charges. In addition, we
identified other matters including QSS’s best customer rate certification to the GSA, proposed
versus actual labor mix, and off-site labor rates and the FDIC’s monitoring of QSS’s employees
working in the FDIC’s facilities. Accordingly, we recommend that the Director, Division of
Administration, take the following actions:

     (1) Disallow $2,230,433 (questioned cost) that QSS billed as improper labor charges.

     (2) Disallow $75,074 (questioned cost) that QSS billed for cellular telephones and pagers.



                                                15
     (3) Review QSS’s billings submitted after October 1999 and disallow inappropriate labor
         charges and other direct costs.

     (4) Coordinate with the GSA on $2,305,660 in potential cost recoveries resulting from
         QSS’s inaccurate and incomplete disclosures to the GSA regarding its best customer
         rates.

     (5) Monitor QSS’s labor mix billings to ensure that excessive hours are not billed in the
         higher labor rate categories for current and future contracts.

     (6) Modify the hourly rates on the desktop support contract (9801148NRM) to ensure that
         off-site labor rates do not exceed the maximum rates allowed under the GSA’s MAS
         contract.

     (7) Require FDIC representatives to perform periodic unannounced inspections to
         determine whether contractor and subcontractor personnel are present and working on
         FDIC tasks and QSS is charging their time to the proper contracts.


CORPORATION COMMENTS AND OIG EVALUATION

On November 7, 2000, the Director, Division of Administration (DOA), provided a written
response to a draft of this report. The Director’s response agreed with the recommendations and
provided the requisites for a management decision on each of the seven recommendations. We
did not summarize the Director’s response because the actions planned or completed are the
same as those recommended. Appendix II to this report presents the Director’s response. On
October 24, 2000, DIRM’s Chief, Internal Review, responded that since the report contained no
DIRM recommendations, the division had no comments to offer.

Appendix III presents management’s proposed actions on our recommendations and shows that
there is a management decision for each recommendation in this report. Based on the audit
work, the OIG will report questioned costs of $2,305,507 its Semiannual Report to the Congress.




                                               16
                                                                                                                              APPENDIX I


                                                          Questioned Costs By Contract
         Category             9700800PJT 9700929NS2 9800058NLH 9800292CJT 9800325CJ8 9801148NRM                                 Totals
Minimum qualifications          $ 858,981         $203,494          $142,709          $273,506           $329,792   $90,296   $1,898,778
Reclassifications                  126,265           96,115           (69,352)          43,979             16,825        0      213,832
Subcontract markups                        0         17,100                  0            7,486             5,544        0       30,130
Administrative                       45,977          41,716                  0                 0               0         0       87,693
Labor costs subtotal            $1,031,223        $358,425          $ 73,357          $324,971           $352,161   $90,296   $2,230,433
Other direct                         49,226          25,848                  0                 0               0         0       75,074
Totals                          $1,080,449        $384,273          $ 73,357          $324,971           $352,161   $90,296   $2,305,507
Source: OIG analysis of the FDIC’s contracts with QSS and QSS’s invoices and supporting documentation.




                                                                           17
                                                                                   APPENDIX II

         Federal Deposit Insurance Corporation
         550 17th Street, NW, Washington, DC 20429                                  Division of Administration


                                                                November 7, 2000
TO:                               Sharon M. Smith
                                  Assistant Inspector General


FROM:                             Arleas Upton Kea
                                  Director, Division of Administration

SUBJECT:                          Management Response to Draft Report: Audit of the QSS Group’s
                                  Billings to the FDIC for Information Technology Services

The Division of Administration (DOA) has completed its review of the referenced Office of
Inspector General (OIG) draft report. The OIG identified five audit findings and made seven
recommendations, two involving $2,305,507 in questioned costs.

Recommendations 1, 2, 3, 4, and 6 will require additional corrective actions by the Acquisition and
Corporate Services Branch (ACSB). Our plan to address the recommendations is summarized in
Exhibit A with expected completion dates and the documentation that will confirm completion of
the corrective actions. Based on the Management Response, this also serves as a statement of
certification that ACSB has completed necessary corrective action for recommendation
numbers 5 and 7.

MANAGEMENT DECISION


OIG FINDING #1:          QSS Billed Improper or Unauthorized Charges Not Allowable Under
                         the Contract

       OIG Recommendation #1: Disallow $2,230,433 (questioned cost) that QSS billed as
                              Improper labor charges.

         Management Response:         We agree with the recommendation. DOA will disallow and
pursue recovery of amounts that cannot be adequately supported by the contractor. We estimate
final resolution of this recommendation by January 31, 2001.

       OIG Recommendation #2: Disallow $75,074 (questioned cost) that QSS billed for
                              cellular telephones and pagers.

        Management Response:           We agree with the recommendation; and we will disallow
and pursue recovery of these amounts if they were not properly authorized and cannot be supported
by the contractor. We estimate final resolution by January 31, 2001.

       OIG Recommendation #3: Review QSS’s billings submitted after October 1999 and
                              disallow inappropriate labor charges and other direct costs.


                                                     18
        Management Response:           We agree with the recommendation. Since the OIG audit
covered QSS billings through October 1999, there was about $2.8 million in contract authorizations
that may have been spent after that date that were not audited. Once we have completed corrective
action for recommendations 1 and 2, we will decide the extent of the review necessary to ensure the
propriety of contractor charges that were not covered by your audit. We estimate completion of this
follow-up action by April 10, 2001.

OIG FINDING #2:        QSS Reported to GSA Inaccurate and Incomplete Labor Rate Data
                       Used to Calculate the Best Customer Rate

       OIG Recommendation #4: Coordinate with the GSA on $2,305,660 in potential cost
                              recoveries resulting from QSS’s inaccurate and incomplete
                               disclosures to the GSA regarding its best customer rates.

         Management Response:          We agree with the recommendation. We were informed that
the GSA Inspector General plans to investigate this issue. We will contact GSA and request that
we be advised of the outcome of that investigation. In the meantime, we will monitor progress of
this issue; and when GSA reports its findings, ACSB will take appropriate action. We expect to
send a request to GSA and assign this issue to our Quality Assurance Unit by December 15, 2000.

OIG FINDING #3:        QSS Billed More Hours At Higher-Rate Labor Categories and Fewer
                       Hours At Lower Rates Than Specified In Its Contract Proposals

       OIG Recommendation #5: Monitor QSS’s labor mix billings to ensure that excessive
                              hours are not billed in the higher labor rate categories for
                              current and future contracts.

        Management Response:           Section 7.G.1.c. of the FDIC Acquisition Policy Manual
charges the OM with the responsibility to ensure that contractor resources are used at proposed
levels. To reconcile this difference and more generally, to improve OM conformance with our
policies, ACSB conducted a training class on September 20, 2000, for all OMs in the Division of
Information Resources Management (DIRM) to address audit issues raised in several recent audits
of DIRM contracts. The training addressed this recommendation; and OMs are required to notify
the Contracting Officer by email, of any wide variances between proposed and actual use of labor
resources. A copy of the training modules was given to all the OMs in DIRM.

In addition to the formal training, the Acquisition Section recently distributed a laminated notebook
insert summarizing OM responsibilities in APM Sec. 7.B. This is intended to be used as a quick
reference. This response serves as a statement of certification that ACSB has completed the
necessary corrective action for recommendation #5.

OIG FINDING #4:        QSS Did Not Have GSA Approval For Off-Site Rates On One Of Its
                       Contracts; and FDIC Negotiated Some Off-Site Rates That Exceeded
                       The Maximum Rate Allowed in the Contractor’s MAS Contract With
                       GSA


                                                 19
       OIG Recommendation #6: Modify the hourly rates on the desktop support contract
                              (98-01148-N-RM) to ensure that off-site labor rates do not
                              exceed the maximum rates allowed under the GSA’s MAS
                              contract.

        Management Response:          In the contract cited in the OIG report, while working out
price schedules with the contractor, ACSB may have inadvertently agreed to labor rates that
exceeded the maximum allowed by GSA. We will review that contract, and will make necessary
modifications to comply with GSA’s MAS contract. We estimate completion of corrective action
by January 31, 2001.

OIG FINDING #5:        QSS Billed For Employees and Subcontractors on Days That
                       Attendance Records Indicate Those Personnel Were Not Present.

       OIG Recommendation #7: Require FDIC representatives to perform periodic
                              unannounced inspections to determine whether contractor
                              and subcontractor personnel are present and working on
                              FDIC tasks and QSS is charging their time to the proper
                              contracts.

         Management Response:           Sections 7.B.1. and 7.G.3. of the APM cover use of the site
visit by the Contract Oversight Manager (OM) to monitor contractor performance, and more
specifically, to compare schedules to actual performance, and ensure that employees working on a
contract are assigned to appropriate tasks. The ACSB training course conducted September 20,
reinforced the importance of verifying contractor attendance, and being alert to the possibility of
cost shifting between contracts. ACSB also emphasized the potential loss to the Corporation by
highlighting the total questioned cost identified by the OIG for each audit issue. A copy of the
training modules was distributed to all OMs in DIRM. This response serves as a statement of
certification that ACSB has completed the necessary corrective action for recommendation
#7.

If you have any questions regarding this response, you may call Richard Johnson, DOA Financial
Review Group, at (202) 942-3191 or Andrew Nickle, DOA Audit Liaison, at 942-3190.



cc:    Mike Rubino
       Deborah Reilly
       Janet Roberson
       Harry Baker
       Howard Furner
       Tom Harris
       Richard Johnson
       Andrew Nickle
       Rack Campbell


                                                 20
                                                             EXHIBIT A

                                                           DIVISION OF ADMINISTRATION
                                                          SUMMARY OF MANAGEMENT DECISION

                                                                                                                         EXPECTED      DOCUMENT
NO.   FINDING DESCRIPTION             QUESTIONED         AMOUNT             DESCRIPTION OF CORRECTIVE ACTION             COMPLETION    VERIFYING
                                      COST             DISALLOWED                                                        DATE          COMPLETION

 1    Contractor billed improper
      or unauthorized charges that
                                                                             Management agreed with the finding and
      were not allowable under the
                                                                                     recommendations.
      contract.

      a. Labor charges:
          (1) Employee
          qualifications did
          not justify rates billed.       $1,898,778      $1,898,778
          (2) Inappropriate
          reclassification of labor
          costs between contracts.          213,832         213,832
          (3) Unallowable
          administrative labor
          charges.                           87,693          87,693
          (4) Subcontractor
          markups not approved.              30,130          30,130     Recommendation #1: DOA will take recovery
                                                                        actions for all amounts that the contractor is
      b. Other unallowable costs:                                       unable to adequately support ($2,230,433).                          ___
           Unauthorized cellular                                                                                            01/31/01         |
           telephones and pagers.            75,074          75,074                                                                      Decision
                                                                        Recommendation #2: DOA will take recovery                       Memorandum
                                                                        actions for all amounts that the contractor is                      Or
                                                                        unable to adequately support ($75,074).             01/31/01      Demand
                                                                                                                                           Letter
                                                                        Recommendation #3: We will review                                   _|_
                                                                        additional contractor invoices submitted after
                                                                        October 1999. The extent of that review will                      Decision
                                                                        depend on the outcome of the other disallowed       04/10/01    Memorandum
                                                                        amounts.                                                              /
                                                                                                                                        Working Papers




                                                                       21
                                                                     EXHIBIT A
                                                                         (Con’t)


                                                        SUMMARY OF MANAGEMENT DECISION

                                         QUESTIONED       AMOUNT            DESCRIPTION OF CORRECTIVE ACTION                     EXPECTED     DOCUMENT
NO.     FINDING DESCRIPTION                 COST        DISALLOWED                                                              COMPLETION    VERIFYING
                                                                                                                                   DATE      COMPLETION
 2    Contractor did not report                                         Management agreed with the finding and
      accurate, complete information              -0-             -0-   recommendation.
      to GSA resulting in an
      inaccurate calculation of Best                                    Recommendation #4: We will coordinate with the            12/15/00   Correspondence
      Customer Rate.                                                    GSA and OIG to ensure that we are informed when a                        to GSA
                                                                        final determination is made of how much FDIC was                           and
                                                                        overcharged due to inaccurate contractor data.                             OIG

 3    Actual labor mix resulted in                -0-             -0-   Management agreed with the recommendation.
      significantly more hours
      charged for higher labor                                          Recommendation #5: ACSB conducted training for all                       Training
      categories than originally                                        DIRM Oversight Managers covering their                   Completed      syllabus;
      proposed by the contractor.                                       responsibilities regarding labor mix; and a Oversight                   OM quick
                                                                        Manager quick reference guide was also distributed to                reference guide
                                                                        all APM recipients.

 4    Contractor did not have GSA                 -0-             -0-   Management agreed with the finding and
      approval for off-site rates for                                   recommendation.                                                        Decision
      one FDIC contract; and some                                                                                                             Memorandum
      off-site rates agreed to by FDIC                                  Recommendation #6: We will review the contract            01/31/01         /
      exceeded the maximum rate                                         identified in the audit report, and make necessary                     Contract
      allowed under the GSA                                             modifications to comply with the GSA MAS contract.                    Modification
      contract.

 5    The contractor billed for                   -0-             -0-   Management agreed with the finding and
      individuals on days that                                          recommendation.
      attendance records indicate
      those personnel were not                                          Recommendation #7: The ACSB training course              Completed   Training syllabus
      present.                                                          conducted in September 2000 reiterated to OMs, the
                                                                        importance of verifying contractor attendance and the
                                                                        shifting of costs between contracts.

              Totals                       $2,305,507      $2,305,507



                                                                             22
                                                                                                                                               APPENDIX III
                                               MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its semiannual
reports to the Congress. To consider the FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are
necessary. First, the response must describe for each recommendation

     •   the specific corrective actions already taken, if applicable;
     •   corrective actions to be taken together with the expected completion dates for their implementation; and
     •   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount that the FDIC plans to disallow must be included in management’s response.

If management does not agree that it should implement a recommendation, it must describe why it does not consider the recommendation valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents management’s responses on recommendations in our report and the status of management decisions. The OIG based the information for
management decisions on management's written response to our report.

                                                                              Expected      Documentation That                   Management
   Rec.                                                                      Completion     Will Confirm Final      Monetary      Decision:
  Number            Corrective Action: Taken or Planned / Status                Date              Action            Benefits      Yes or No
     1        The Director, DOA, agreed with the recommendation and            01/31/01    Decision memorandum      $2,230,433       Yes
              stated that DOA will disallow and pursue recovery of                         or demand letter.        disallowed
              amounts that the contractor cannot adequately support.                                                   cost
     2        The Director, DOA, agreed with the recommendation and            01/31/01    Decision memorandum       $75,074         Yes
              stated that DOA will disallow and pursue recovery of                         or demand letter.        disallowed
              amounts that the contractor cannot adequately support.                                                   cost


     3        The Director, DOA, agreed with the recommendation. The           04/10/01    Decision memorandum      Unknown          Yes
              Director stated that after completing corrective actions for                 or demand letter.
              recommendations 1 and 2, DOA would review the contractor
              charges submitted after October 1999, which our audit did
              not cover, to ensure the propriety of those charges.

                                                                                23
                                                                           Expected     Documentation That                Management
 Rec.                                                                     Completion    Will Confirm Final     Monetary    Decision:
Number         Corrective Action: Taken or Planned / Status                  Date             Action           Benefits    Yes or No
  4      The Director, DOA, agreed with the recommendation and             12/15/00    Correspondence to the   Unknown       Yes
         stated that DOA will monitor the progress of the GSA                          GSA.
         Inspector General’s review and take appropriate action when
         the GSA reports its findings.
  5      The Director, DOA, agreed with the recommendation and            Completed Training syllabus and      Unknown       Yes
         stated that DOA conducted a training class on September 20,                oversight manager
         2000, for all DIRM oversight managers. The Director stated                 quick reference guide.
         that the training addressed this recommendation by
         instructing oversight managers to notify the contracting
         officer of any wide variances between proposed and actual
         labor usage. The Director added that DOA also distributed a
         quick reference guide summarizing oversight manager
         responsibilities.
  6      The Director, DOA, agreed with the recommendation and             01/31/01    Decision memorandum     Unknown       Yes
         stated that DOA would review the contract and make                            or contract
         necessary changes to comply with the maximum rates                            modification.
         allowed under the GSA’s MAS contract.
  7      The Director, DOA, agreed with the recommendation and            Completed Training syllabus.         Unknown       Yes
         stated that the September 20, 2000, DOA training course
         instructed oversight managers on the importance of verifying
         contractor attendance and being alert to cost shifting between
         contracts.




                                                                          24
